ORfQiNAt

NoT

IN THE
SUPREME COURT OF THE UNITED STATES

RLED
APR 1 3 2021

Cedric Jones Sr—PETITIONER

vs.
Judge Waverly D. Crenshaw Jr.; SOLICITOR GENERAL OF THE UNITED STATES;
—RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI FROM THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT

"AMENDED"
PETITION FOR WRIT OF CERTIORARI

Cedric Jones Sr., 519021
555 Forrest Ave
PO Box 279
Clifton, Tennessee 38425

RECEIVED
APR 2 3 2021
l

OFFICE OF THE CLERK
SUPREME COURT I IS

QUESTIONS (S) PRESENTED
1. Whether it is LEGAL for an appellate court clerk (not a judge) to sign an ORDER, and
that ORDER be valid and binding without a judge's signature or proof (by sworn
affidavit) that a judge indeed authorized his signature be circumvented by a Clerk's?
2. Whether the Six Circuit Court Clerk, Debra S. Hunt, acted without jurisdiction by
signing an ORDER for issuance upon Petitioner without a judges signature?
3. Whether the Six Circuit Court Clerk, Debra S. Hunt, committed official misconduct
against the Petitioner?
4. Whether the Six Circuit Court Clerk, Debra S. Hunt, committed official oppression or
fraud against the Petitioner?
5. Whether any past ORDERS signed by Six Circuit Court Clerk Debra S. Hunt, adverse
to the Petitioner herein, are deemed VOID to cases retroactively on collateral review?
6. Whether all ORDERS stemming from the Court of Appeals at Cincinnati, Ohio shall be
signed by a Judge rather than a Clerk in the future?
7. Whether the Petitioner's Writ of Mandamus dismissed by Clerk Debra S. Hunt(case
No. 20-6277) has merit?
8. Whether the District Court judge abused his discretion by denying the Petitioner's
Motion to Recuse himself (Doc. 232, Case No. 3:16-cv-02631) in complete and
absolute disregard to mandatory law pursuant to title 28 U.S.C. §144 that states:
"Whenever a party to any proceeding in a district court makes and files a timely and
sufficient affidavit that the judge before whom the matter is pending has a personal
bias or prejudice either against him or in favor of any adverse party, such judge shall
proceed no further"?
9. Whether the decision of the 6th Circuit Court of Appeals was erroneous and in direct
contravention to Clearly Established Federal Law, mandated by congress, pursuant to
title 28 U.S.C. §144 as cited in the Petitioner's Writ

of Mandamus under his

"Argument" Section, of his page 6 therein?
10. Whether the district judge (Waverly D. Crenshaw) violated his oath of office (28 U.S.C
§453 )?

2

LIST OF PARTIES
[ x ] All parties appear in the caption of the case on the cover page

[

] All parties do not appear in the caption of the case on the cover page. A list of all parties

to the proceeding in the court whose judgment is the subject of this petition is as follows:

RELATED CASES
Notice to the reader: Case number 2:16-cv-02631 below was entered as an error by the
District court in Nashville, but should have been case No. 3:16-cv-02631 because they are
the same case (the Petitioner's Federal Habeas Corpus).

3

TABLE OF CONTENTS
INDEX OF APPENDICES...............................................................
TABLE OF AUTHORITIES.............. ................................................
OPINIONS BELOW.........................................................................
JURISDICTION........................................................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE......... .................................................
REASONS FOR GRANTING THE PETITION................ ...............
CONCLUSION.............. ..........

4

..page 5
..page 6
page 7
..page 8
..page 9
page 15
page 16
page 28

INDEX OF APPENDICES
APPENDIX A

Decision from United States Court of Appeals for The Sixth Circuit

APPENDIX B

Petitioner's "Amended" Writ of Mandamus

APPENDIX C

District Judge's Order Denying Motion to Recuse

APPENDIX D

Petitioner's Motion to Recuse the District Judge at Nashville, TN

5

TABLE OF AUTHORITIES
CASES

PAGE NUMBER

Withrow, 421 U. S., at 57, 95 S. Ct. 1456, 43 L. Ed. 2d 712

Page 21, 22

United States v. Ritter, 540 F.2d 459 (10th Cir.), cert, denied, 429 U.S. 951, 97 S. Ct. 370, 50 L. Ed. 2d
319(1976).

.Page 27

Complaint of Judicial Misconduct, 366 F.3d 963 (9th Cir. 2004).

Page 22
Office of the Attorney General of the State of Tennessee 1987 Tenn. AG LEXIS 159 87-39 March 12
1987 WAVERLY D. CRENSHAW, JR., Assistant Attorney General
Page 21
Cheryl A. Blackburn, Assistant District Attorney General, Nashville, TN AT NASHVILLE 938 S W 2d
1; 1996 Tenn. Crim. App. LEXIS 317 No. 01-C-01-9403-CR-00084,.................................... Page 21, 22
Cheryl A. Blackburn, Assistant District Attorney General, 102 Metropolitan Courthouse, Nashville TN
37201 under case No. 01-C-01-9112-CR-0038222
Page 22
H.R. Res. 87, 101st Cong. (1989) (impeaching Judge Nixon)........

.Page 24

H.R. Res. 499 100th Cong. (1988) (impeaching Judge Hastings)...

.Page 24

H.R. Res. 461, 99th Cong. (1986) (impeaching Judge Claiborne)..

.Page 24

STATUTES AND RULES
18U.S.C. §241

Page 9, 17, 18, 26

18 U.S.C. §242...

...... Page 9, 18

18 U.S. C § 1505

Page 9, 19, 26

28 U.S.C. §144

pages 2, 10, 15, 16, 18, 24, 25, 27, 28

28 USCS §351-364.

Page 22

28 USCS § 372(c)

Page 10, 22

28 U.S.C. § 453

Page 18, 24

28 USCS § 455

pages 11,16,27

28 §2254

Page 13, 18,23
OTHER

Article III, § 1, of the Constitution ...

Page 14, 18
6

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals at Appendix " A"_to the petition and is
[ ] reported at_________ ____________________________
[ X ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
_______________
[ X ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

or,

"C"

to

; or,

[ ] For case from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____to the petition and is
[ ] reported at_______________________
.______________
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

or,

The opinion of the highest state court to review the merits appears at
Appendix_____to the petition and is
[ ] reported at______________ ________________
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

7

or,

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was February 02, 2021
[X] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of Appeals on the
following date.----------------------------------- , and a copy of the order denying rehearing appears at
Appendix____
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(1).

I ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix____________ .

~

[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing appears at
Appendix

8

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
18 U.S.C. §241 Conspiracy against rights
If two or more persons conspire to injure, oppress, threaten, or intimidate any person in any State,
Territory, Commonwealth, Possession, or District in the free exercise or enjoyment of any right or
privilege secured to him by the Constitution or laws of the United States, or because of his having so
exercised the same; or
If two or more persons go in disguise on the highway, or on the premises of another, with intent to
prevent or hinder his free exercise or enjoyment of any right or privilege so secured
They shall be fined under this title or imprisoned not more than ten years, or both; and if death results
from the acts committed in violation of this section or if such acts include kidnapping or an attempt to
kidnap, aggravated sexual abuse or an attempt to commit aggravated sexual abuse, or an attempt to kill,
they shall be fined under this title or imprisoned for any term of years or for life, or both, or may be
sentenced to death.
18 U.S.C. §242 Deprivation of rights under color of law
Whoever, under color of any law, statute, ordinance, regulation, or custom, willfully subjects any
person in any State, Territory, Commonwealth, Possession, or District to the deprivation of any rights,
privileges, or immunities secured or protected by the Constitution or laws of the United States, or to
different punishments, pains, or penalties, on account of such person being an alien, or by reason of his
color, or race, than are prescribed for the punishment of citizens, shall be fined under this title or
imprisoned not more than one year, or both; and if bodily injury results from the acts committed in
violation of this section or if such acts include the use, attempted use, or threatened use of a dangerous
weapon, explosives, or fire, shall be fined under this title or imprisoned not more than ten years, or
both, and if death results from the acts committed in violation of this section or if such acts include
kidnapping or an attempt to kidnap, aggravated sexual abuse, or an attempt to commit
aggravated sexual abuse, or an attempt to kill, shall be fined under this title, or imprisoned for any term
of years or for life, or both, or may be sentenced to death.
18 U.S. C § 1505 Obstruction of proceedings before departments, agencies, and committees
Whoever, with intent to avoid, evade, prevent, or obstruct compliance, in whole or in part, with any
civil investigative demand duly and properly made under the Antitrust Civil Process Act [15 USCS §§
1311 et seq.], willfully withholds, misrepresents, removes from any place, conceals, covers up,
destroys, mutilates, alters, or by other means falsifies any documentary material, answers to written
interrogatories, or oral testimony, which is the subject of such demand; or attempts to do so or solicits
another to do so; or
Whoever corruptly, or by threats or force, or by any threatening letter or communication influences,
obstructs, or impedes or endeavors to influence, obstruct, or impede the due and proper administration

9

of the law under which any pending proceeding is being had before any department or agency of the
United States, or the due and proper exercise of the power of inquiry under which any inquiry or
investigation is being had by either House, or any committee of either House or any joint committee of
the Congress
Shall be fined under this title, imprisoned not more than 5 years or, if the offense involves international
or domestic terrorism (as defined in section 2331 [18 USCS § 2331]), imprisoned not more than
8 years, or both.
28 U.S.C. §144
Whenever a party to any proceeding in a district court makes and files a timely and sufficient affidavit
that the judge before whom the matter is pending has a personal bias or prejudice either against him or
in favor of any adverse party, such judge shall proceed no further therein, but another judge shall be
assigned to hear such proceeding.
The affidavit shall state the facts and the reasons for the belief that bias or prejudice exists, and shall be
filed not less than ten days before the beginning of the term [session] at which the proceeding is to be
heard, or good cause shall be shown for failure to file it within such time. A party may file only one
such affidavit in any case. It shall be accompanied by a certificate of counsel of record stating that it is
made in good faith
28 USCS § 372(c) Retirement for disability; substitute judge on failure to retire
(a) Any justice or judge of the United States appointed to hold office during good behavior who
becomes permanently disabled from performing his duties may retire from regular active service, and
the President shall, by and with the advice and consent of the Senate, appoint a successor.
Any justice or judge of the United States desiring to retire under this section shall certify to the
President his disability in writing.
Whenever an associate justice of the Supreme Court, a chief judge of a circuit or the chief judge of the
Court of International Trade, desires to retire under this section, he shall furnish to the President a
certificate of disability signed by the Chief Justice of the United States.
A circuit or district judge, desiring to retire under this section, shall furnish to the President a certificate
of disability signed by the chief judge of his circuit.
A judge of the Court of International Trade desiring to retire under this section, shall furnish to the
President a certificate of disability signed by the chief judge of his court.
Each justice or judge retiring under this section after serving ten years continuously or otherwise shall
during the remainder of his lifetime, receive the salary of the office. A justice or judge retiring under
this section who has served less than ten years in all shall, during the remainder of his lifetime receive
one-half the salary of the office.
(b) Whenever any judge of the United States appointed to hold office during good behavior who is
10

eligible to retire under this section does not do so and a certificate of his disability signed by a majority
of the members of the Judicial Council of his circuit in the case of a circuit or district judge, or by the
Chief Justice of the United States in the case of the Chief Judge of the Court of International Trade, or
by the chief judge of his court in the case of a judge of the Court of International Trade, is presented to
the President and the President finds that such judge is unable to discharge efficiently all the duties of
his office by reason of permanent mental or physical disability and that the appointment of an
additional judge is necessary for the efficient dispatch of business, the President may make such
appointment by and with the advice and consent of the Senate. Whenever any such additional judge is
appointed, the vacancy subsequently caused by the death, resignation, or retirement of the
disabled judge shall not be filled. Any Judge whose disability causes the appointment of an additional
judge shall, for purpose of precedence, service as chief judge, or temporary performance of the duties
of that office, be treated as junior in commission to the other judges of the circuit, district, or court.
28 U.S.C. §453
Each justice or judge of the United States shall take the following oath or affirmation before
performing the duties of his office: I,___, do solemnly swear (or affirm) that I will administer justice
without respect to persons, and do equal right to the poor and to the rich, and that I will faithfully and
impartially discharge and perform all the duties incumbent upon me as
under the Constitution and
laws of the United States. So help me God.
28 USCS § 455
(a) Any justice, judge, or magistrate [magistrate judge] of the United States shall disqualify himself in
any proceeding in which his impartiality might reasonably be questioned.
(b) He shall also disqualify himself in the following circumstances:
(1) Where he has a personal bias or prejudice concerning a party, or personal knowledge of disputed
evidentiary facts concerning the proceeding;
(2) Where in private practice he served as lawyer in the matter in controversy, or a lawyer with
whom he previously practiced law served during such association as a lawyer concerning the matter, or
the judge or such lawyer has been a material witness concerning it;
(3) Where he has served in governmental employment and in such capacity participated as counsel,
adviser or material witness concerning the proceeding or expressed an opinion concerning the merits of
the particular case in controversy;
(4) He knows that he, individually or as a fiduciary, or his spouse or minor child residing in his
household, has a financial interest in the subject matter in controversy or in a party to the proceeding,
or any other interest that could be substantially affected by the outcome of the proceeding;
(5) He or his spouse, or a person within the third degree of relationship to either of them, or the
spouse of such a person:

11

(i) Is a party to the proceeding, or an officer, director, or trustee of a party;
(ii) Is acting as a lawyer in the proceeding;
(iii) Is known by the judge to have an interest that could be substantially affected by the outcome
of the proceeding;
(iv) Is to the judges knowledge likely to be a material witness in the proceeding.
(c) A judge should inform himself about his personal and fiduciary financial interests, and make a
reasonable effort to inform himself about the personal financial interests of his spouse and minor
children residing in his household.
(d) For the purposes of this section the following words or phrases shall have the meaning indicated:
(1) proceeding includes pretrial, trial, appellate review, or other stages of litigation;
(2) the degree of relationship is calculated according to the civil law system;
(3) fiduciary includes such relationships as executor, administrator, trustee, and guardian;
(4) financial interest means ownership of a legal or equitable interest, however small, or a
relationship as director, adviser, or other active participant in the affairs of a party, except that:
(i) Ownership in a mutual or common investment fund that holds securities is not a financial
interest in such securities unless the judge participates in the management of the fund;
(ii) An office in an educational, religious, charitable, fraternal, or civic organization is not a
financial interest in securities held by the organization;
(iii) The proprietary interest of a policyholder in a mutual insurance company, of a depositor in a
mutual savings association, or a similar proprietary interest, is a financial interest in the organization
only if the outcome of the proceeding could substantially affect the value of the interest;
(iv) Ownership of government securities is a financial interest in the issuer only if the outcome of
the proceeding could substantially affect the value of the securities.
(e) No justice, judge, or magistrate [magistrate judge] shall accept from the parties to the proceeding a
waiver of any ground for disqualification enumerated in subsection (b). Where the ground for
disqualification arises only under subsection (a), waiver may be accepted provided it is preceded by a
full disclosure on the record of the basis for disqualification.
(f) Notwithstanding the preceding provisions of this section, if any justice, judge, magistrate
[magistrate judge], or bankruptcy judge to whom a matter has been assigned would be disqualified,
after substantial judicial time has been devoted to the matter, because of the appearance or discovery,
after the matter was assigned to him or her, that he or she individually or as a fiduciary, or his or her
spouse or minor child residing in his or her household, has a financial interest in a party (other than an
12

interest that could be substantially affected by the outcome), disqualification is not required if the
justice, judge, magistrate [magistrate judge], bankruptcy judge, spouse or minor child, as the case may
be, divests himself or herself of the interest that provides the grounds for the disqualification.
28 §2254 State custody; remedies in Federal courts
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall entertain an
application for a writ of habeas corpus in behalf of a person in custody pursuant to the judgment of a
State court only on the ground that he is in custody in violation of the Constitution or laws or treaties of
the United States.
(b) (1) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the
judgment of a State court shall not be granted unless it appears that
(A) the applicant has exhausted the remedies available in the courts of the State; or
(B) (i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the rights of the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits, notwithstanding the
failure of the applicant to exhaust the remedies available in the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be estopped from
reliance upon the requirement unless the State, through counsel, expressly waives the requirement.
(c) An applicant shall not be deemed to have exhausted the remedies available in the courts of the
State, within the meaning of this section, if he has the right under the law of the State to raise, by any
available procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the
judgment of a State court shall not be granted with respect to any claim that was adjudicated on the
merits in State court proceedings unless the adjudication of the claim
(1) resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
(e) (1) In a proceeding instituted by an application for a writ of habeas corpus by a person in custody
pursuant to the judgment of a State court, a determination of a factual issue made by a State court shall
be presumed to be correct. The applicant shall have the burden of rebutting the presumption of
correctness by clear and convincing evidence.

13

(2) If the applicant has tailed to develop the factual basis of a claim in State court proceedings, the
court shall not hold an evidentiary hearing on the claim unless the applicant shows that
(A) the claim relies on
(i) a new rule of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through the exercise of
due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and convincing
evidence that but for constitutional error, no reasonable factfinder would have found the applicant
guilty of the underlying offense.
(f) If the applicant challenges the sufficiency of the evidence adduced in such State court proceeding to
support the State court t s determination of a factual issue made therein, the applicant, if able, shall
produce that part of the record pertinent to a determination of the sufficiency of the evidence to support
such determination. If the applicant, because of indigency or other reason is unable to produce such
part of the record, then the State shall produce such part of the record and the Federal court shall direct
the State to do so by order directed to an appropriate State official. If the State cannot provide such— pertinent part of the record, then the court shall determine under the existing facts and circumstances
what weight shall be given to the State court t s factual determination.
(g) A copy of the official records of the State court, duly certified by the clerk of such court to be a true
and correct copy of a finding, judicial opinion, or other reliable written indicia showing such a factual
determination by the State court shall be admissible in the Federal court proceeding.
(h) Except as provided in section 408 of the Controlled Substance Acts [21 USCS § 848], in all
proceedings brought under this section, and any subsequent proceedings on review, the court may
appoint counsel for an applicant who is or becomes financially unable to afford counsel, except as
provided by a rule promulgated by the Supreme Court pursuant to statutory authority. Appointment of
counsel under this section shall be governed by section 3 006A of title 18.
(i) The ineffectiveness or incompetence of counsel during Federal or State collateral post-conviction
n0t ^ a ®r0Unc* ^0r re^e^ a Proceeding arising under section 2254 [28 USCS §
Article III, § 1, of the Constitution
provides that:
The judicial power of the United States shall be vested in one supreme Court and in such inferior
Courts as the Congress may from time to time ordain and establish. The Judges, both of the supreme
and inferior Courts, shall hold their Offices during good Behavior. ..."

14

STATEMENT OF THE CASE
1. The Petitioner filed an " Amended" writ of mandamus to the Appeals Court at Cincinnati under
Case No. 20-6277 against district Judge Waverly D. Crenshaw for failing to recuse himself
under Doc. 232 of Case No. 3:16-cv-02631 (Middle District Court at Nashville, Tennessee).
2. In that Amended writ of mandamus, the Petitioner requested 4 issues listed verbatim as follows:
STAY the proceeding in the district court until a decision is made from this petition
•
The petitioner request that this court Preclude Judge Waverly D. Crenshaw from
proceeding any further in his federal habeas corpus proceedings under USDC No- 3T6-cv02631.
•
Reassign the petitioners' case NO. 3:16-cv-02631 (Middle District), to Honorable
Barbara D. Holmes. See Flamm. Disqualification and reassignment of federal district court
judges, 9 4 Prac Litig 41, July 1998.
•

Any other relief allowed under Federal law in this court

3. The Court Clerk at Cincinnati Ohio, Deborah S. Hunt, (who is not a judge), issued and signed
an ORDER herself denying the mandamus petition on February 02, 2021 stating: "The
mandamus petitioner is therefore DENIED, see enclosure attached (Appendix "A").
4. When Court Clerk, Deborah S. Hunt, (who is not a judge), issued and signed the attached
ORDER, she did not list all the reasons supra that the Petitioner raised verbatim, she only listed
three and left out the fourth one ("Any other relief allowed under Federal law in this court")
5. When Court Clerk Deborah S. Hunt (who is not a judge), issued and signed the attached
ORDER, she did not address the Petitioner's Argument he raised in his writ of Mandamus on
his page 6 therein stating verbatim: "Whenever a party to any proceeding in a district court
makes and files a timely and sufficient affidavit that the judge before whom the matter is
pending has a personal bias or prejudice either against him or in favor of any adverse party,
such judge shall proceed no further therein, but another judge shall be assigned to hear such
proceeding. § 144. Bias or prejudice" SHE ONLY RESPONDED TO §455 (a) and
IGNORED statute 28 U.S.C. §144 in complete disregard of Clearly Established Federal Law
MANDATED by Congress.
6. Court Clerk Debra S. Hunt further wrote in the attached ORDER (Appendix "A"), Before:
GILMAN, STRANCH, and NALBANDIAN, Circuit Judges

15

REASONS FOR GRANTING THE PETITION
1. There is an issue of imperative public importance beyond the particular facts in this case and the
parties involved, that are unknown to the U.S. Supreme Court Justices requiring their immediate
attention and review
2. A United States Court of Appeals has entered a decision in conflict with the decision of the
United States Supreme Court on the same important matter;
3. A United States Court of Appeals has decided an important federal question of law in a way that
conflicts with a decision by the U.S. Supreme Court
4. A United States Court of Appeals has departed from the accepted and usual course of judicial
proceedings in direct contravention of clearly established federal law
5. The issues presented by the Petitioner herein calls for an exercise of this Court's supervisory
power
6. A United States Court of Appeals has decided an important question of federal law that has not
been, but should be, settled by this Court, or has decided an important federal question in a way
that conflicts with relevant decisions of this Court
7. The Petitioner avers that he is being held illegally against his will in prison by the Respondent
via a real and active conspiracy under a VOID conviction on the face of his indictment and that
if this Petition is not granted he will lose his life and liberty.
8. The Petitioner avers that federal judge Waverly D. Crenshaw at Nashville, Tennessee is actively
engaged in criminal conduct against him in secret although he has the title of a Federal Judge
and, that the Supreme Court Justices need to know that this federal judge ( Waverly D.
Crenshaw) is willfully violating federal law enacted by Congress to hide his crimes in secret via
conspiracy with the respondent requiring appointment of a special prosecutor.
9. There exist a reasonable likelihood that the Petitioner's case would not be tried with impartiality
where litigants have a right to expect such in United States District Courts, and considering the
broad language of 28 USCS § 455(a), interest of justice requires that cause be tried by another
judge.
10. To resolve a disagreement among the lower court about a specific legal question because there
exist a legacy that the Petitioner believes is unconstitutional whereas the Sixth Circuit Court
Clerk, Debra S. Hunt (who is not a judge), is signing ORDERS as if she is a judge See appendix
"A" enclosed
11. To see if this practice (where a court clerk signs ORDERS like a judge) can be changed by U.S.
Supreme Court law because the Petitioner avers that writs, process, orders, and judgments of a
court must be signed by a judge or judges of the court, or by the clerk at the direction of the
court with proof or a sworn statement that a judge authorized a court clerk to sign an ORDER
12. There is a conflict between the decision by the 6th Circuit of which review is now sought and a
MANDATE of congress ("28 U.S.C. §144") on the same issue.
13. To resolve a specific legal question or questions that not only affects the Petitioner's case, at bar
but the general public hence forth.
14. To determine whether a court clerk (e.g. Debra S. Hunt) can sign an ORDER and that ORDER
be valid and binding without real proof or a sworn affidavit that a judge indeed directed and
authorized he or she to sign it.
15. Because the decision of the 6th Circuit Court of Appeals is clearly erroneous due to the fact that
they completely ignored federal statutory law (title "28 U.S.C. §144") which was cited in the
Petitioners motion to recuse the district court, judge (Doc. 232), No. 3:16-cv-02631, on the
Petitioner's page 1, in his conclusion section. See Appendix "D" and "A"
16

ARGUMENTS PURSUANT TO REASONS FOR GRANTING THE PETITION
1. There is an issue of imperative public importance beyond the particular facts in this case and the
parties involved, that are unknown to the U.S. Supreme Court Justices requiring their immediate
attention and review (Reason 1)
Statement of Facts
The Petitioner filed a motion for Judge Waverly D. Crenshaw to recuse himself from his case (#3:16-cv-02631,
Doc. No. 232) alleging that he has engaged in conduct prejudicial to the effective and expeditious
administration of the business of the courts, and that such judge is unable to discharge all the duties of
office by reason of mental or physical disability; And that District Judge Waverly D. Crenshaw has an
interest in his case, an appearance of a bias, a probable bias, and actual bias against him. The Subject
Judge denied recusing himself in Doc. NO. 242 , PagelD #5483 at top paragraph stating:
"For the foregoing reasons, Jones's Motion (Doc. NO. 232) seeking the undersigned's
recusal will be denied".
ALLEGATIONS
The Petitioner alleges that Judge Waverly D. Crenshaw is still retaliating against him (Obstructing
Justice), for filing complaints on him in the past to the board of judicial conduct under case No.06-1990047 & 06-19-90080. The Petitioner alleges that Judge Waverly D. Crenshaw violated his federal
protected civil rights "willfully", and in reckless disregard of his fundamental Constitutional due
process rights, while acting under color of federal law. The Petitioner alleges that the district judge's
conduct towards him is criminal in nature by the definitions under title 18 U.S.C. §241, §242, § 1505
and that this matter is very serious and must be accepted as true.
The Petitioner alleges that the district court violated his due process rights under the Due Process
Clause of Fifth and Fourteenth Amendment of the U.S. Constitution. The petitioner alleges the the
district judge is incapable of ruling fairly on his federal habeas corpus petition (Case No. 3:16-cv02631, Doc. 161, 207 et. seq), and any future petition's and motions, and has engaged in criminal
activity against him. The petitioner alleges that the district's failure to recuse himself has caused him
irreparable harm and that his case is being heard by a "prosecutor-type judge", (Not a civil rights
judge). The Petitioner alleges that he has a right to file complaints on a federal judge by statute enacted
by the Board of Judicial Conduct, and that because he chose to exercise that right, he has been
retaliated against.
Thus the Petitioner alleges that the subject judge (Waverly D. Crenshaw), violated his federal protected
17

civil rights while acting under color of federal law. Note: A claim has been stated herein.
The Petitioner alleges that due to the subject matter of the Petitioner's case at hand, District Court
Judge Waverly D. Crenshaw cannot be impartial and actually searches for ways to defeat the Petitioner
even when it is evident that his substantial trial rights have been violated, are being violated with a
clear showing of crimes committed against him by the trial court (Cheryl A. Blackburn et al).
The Petitioner alleges that Judge Waverly D. Crenshaw has committed several felonies against him,
(see sworn affidavit attached) while acting under color of federal law under Title 18 U.S.C. §241, 242,
§ 1505.
The Petitioner alleges that Judge Waverly D. Crenshaw is actively committing official misconduct and
official oppression due to subject-matter of the Petitioner's case at hand. The Petitioner alleges that
when Judge Waverly D. Crenshaw responds to the Petitioners complaints filed against him to the
judicial board of conduct, he uses misleading, manipulating, and negative case-laws by says things in
such a way as to undermine the minds of judicial counsel. The Petitioner further alleges that judge
Waverly D. Crenshaw has a prosecutor's mindset and not a 'true' title 28 §2254, civil rights mindset,
when it comes to cases such as the Petitioner's case.
When the Petitioner filed a Motion For Judge Crenshaw to recuse himself (Doc. No. 232), 28 U.S.C
§144 Mandated it! The Petitioner alleges that Judge Waverly D. Crenshaw violated his Oath of Office
(28 U.S.C. § 453) to uphold both the Constitution and laws of the United States and has USURPED his
position by continuing to preside on the Petitioner's Federal Habeas Corpus case (No. 3:16-cv-02631).
The Petitioner alleges that Judge Waverly D. Crenshaw is actually ANGRY at him for filing complaints
on him in the past and intentionally Denies all his motions by searching for random federal case laws to
support them, when it is clear to him that the Petitioner's civil rights are being violated. Furthermore,
although denying motions (judicial rulings) alone may not necessary constitute judicial misconduct, the
willful Battern of misconduct of "obstructing Justice", and conducting one's office in 'bad behaviour'
does. See ARTICLE III. JUDICIAL POWER, §1. Article III, § 1, of the Constitution is straightforward
and uncomplicated on its face.

Therefore, the Petitioner, alleges that the District Court Judge, Mr.

Waverly D. Crenshaw, has deprived him of his Constitutional rights (5th and 14 Amendment due
process) while acting under color of federal law in violation of title 18 U.S. C. § 241, §242, and

18

Obstruction Justice 18U.S. C. § 1505 .
MORE ARGUMENTS FOR REASON ONE (1)
The Petitioner filed several Motions (Documents No's 249, 250, 251, 252, 253, 254, 255, 256, 257,
258, 259, 260 and 261) in the Federal Court (Middle District) at Nashville under Habeas Corpus Case
No. 3:16-cv-02631 exercising his 1 st Amendment Right (Freedom of Speech).
District Judge Waverly D. Crenshaw stated in his ORDER (Doc. 264, PagelD #5671), at the second
paragraph therein:
The only reason provided by Petitioner for wanting the names of grand jury members
is to challenge a particular juror's service. But Petitioner already knows the name of
that juror, as he identified her by name in his petition for post-conviction relief when
he argued that she was not a resident of Davidson County"
However, the Petitioner did not list 'challenging a particular juror's service' as the "only reason" for
filing Document NO. 252 (Motion to Inspect the Names of the Grand Jurors who Occurred in the
Indictment and to Produce the Grand Jury Minutes and Transcripts).
The Petitioner stated on line one (1) of that Motion verbatim:
"Comes Now, the petitioner, who is representing himself pro se, and files this motion
because he objects to the members of his Grand Jury. The petitioner raised this issue in
his pro se post-conviction as "Ground 20" See Doc.234, Pageld #4833 " See Doc. 252
Petitioner further alleged under his argument section of that motion (Doc. 252) these
exact words:
"The petitioner alleges that prosecutorial misconduct occurred in the grand jury
proceedings by Prosecutor Robert Paul Carrigan III." See Doc. 252, under Argument
Petitioner further alleged under his argument section of that motion (Doc. 252) these
exact words:
"Petitioner alleges that he was taken by surprise and unable to present his case because
he was represented by counsel". See Doc. 252, under the Argument Section at #6
19

CONTINUED ARGUMENTS FOR REASON ONE (1)
The Petitioner was not seeking to get a copy of the Grand Jury transcripts to challenge a particular
jurors service as the subject judge put it. The Petitioner was seeking to get a copy of the grand jury
transcripts to see what was taken to the Grand Jury by the prosecution for him to be indicted of having
"raping someone with a gun"which had a substantial and injurious effect on him, which the Petitioner
strictly denies.
In fact, the Petitioner/Petitioner alleged this in his Motion (Doc. 252). He said:
"The petitioner STRICTLY DENIES that he "Took The Victim At Gun Point Period!
nor was he ARMED with a weapon when he left his home or used a gun to rape his
daughter!" See his page 3 therein at #13
Based on the fact that during the petitioners trial (Cedric Jones Criminal Trial), the court (Cheryl
Blackburn) said to the jurors: “He's alleged to have used a gun to rape his daughter”. But then counsel
corrected her saying: “That kind of give the impression that-” and the judge said: “What about
Possessed” (Referencing Transcript, Page 8 at lines 4-17) Doc. 178-7, PagelD# 2785 , and had the
district judge GRANTED the Petitioner's Motion (doc. 252), he would have been able to established
that the trial court committed a Constructive Amendment of his indictment which is automatically
reversible. This is because a Constructive Amendment of an indictment is considered a Structural Error.
Therefore, The Petitioner alleges that judge Waverly D. Crenshaw, (the subject judge), has engaged in
conduct prejudicial to the effective and expeditious administration of the business of the courts
He did this by making a Partisan statement stating in his ORDER (Doc. 264, PageID#5671), at the
second paragraph therein: :

The only reason provided by Petitioner for wanting the names of grand jury members
is to challenge a particular juror's service. But Petitioner already knows the name of
that juror, as he identified her by name in his petition for post-conviction relief when
he argued that she was not a resident of Davidson County"

The definition of Prejudicial means:
1. Detrimental; Injurious
2. Causing or tending to preconceived judgment or convictions
Because the subject judge (Waverly D. Crenshaw) made this Partisan statement " The only reason
provided by Petitioner for wanting the names of grand jury members" it did constitution Misconduct.
The definition of Partisan means:
20

1. A fervent, sometimes militant supporter or proponent of a party, cause, faction, person, or idea
2. A member of an organized body of fighters who attack or harass an enemy, especially within
occupied territory, a guerrilla. SOURCE: Microsoft Bookshelf Basics- Definitions

In theory, Judge Waverly D. Crenshaw, the district judge, iis a supporter of the Petitioner's adversary,
(the Respondent), because he use to work for the District Attorneys Office. See the Evidence below
showing both the Petitioner's trial court judge and the district judge.
EVIDENCE OF PRIOR POSITION OF THE DISTRICT JUDGE AND HOW HE'S PARTIAL
Chief Deputy Attorney General Office of the
Attorney General of the State of Tennessee
1987 Tenn. AG LEXIS 159
87-39, March 12, 1987 ,
WAVERLY D. CRENSHAW, JR., Assistant
Attorney General

Chief Deputy Attorney General
Office of the Attorney General of the State of
Tennessee
1986 Tenn. AG LEXIS 146
86-79, April 2, 1986
WAVERLY D. CRENSHAW, JR., Assistant
Attorney General

Argument: There is, furthermore, a risk that the judge "would be so psychologically wedded" to his
or her previous position as a prosecutor that the judge "would consciously or unconsciously {195 L.
Ed. 2d 142} avoid the appearance of having erred or changed position." Withrow, 421 U. S., at 57, 95
S. Ct. 1456, 43 L. Ed. 2d 712
______EVIDENCE ON THE PETITIONER'S TRIAL JUDGE AS BEING CONNECTED
STATE OF TENNESSEE, APPELLEE, v. JAMES THOMAS JEFFERSON, APPELLANT.
COURT OF CRIMINAL APPEALS OF TENNESSEE, AT NASHVILLE
938 S.W.2d 1; 1996 Tenn. Crim. App. LEXIS 317
No. 01-C-01-9403-CR-00084
May 24, 1996, FILED , Cheryl A. Blackburn, Assistant District Attorney General, Nashville, TN.
Note: Cheryl Blackburn was the Petitioner's Trial Judge who wrongfully convicted him in 2013.

—evidence of partisanship of all parties being connected againt me
STATE OF TENNESSEE v. JULIUS WIEL WALTON
COURT OF CRIMINAL APPEALS OF TENNESSEE, AT NASHVILLE
2015 Tenn. Crim. App. LEXIS 342
No. M2014-01337-CCA-R3-CD
March 11, 2015, Assigned on Briefs
May 12, 2015, Filed , Michael M. Stahl, Assistant Attorney General
Note: Michael M. Stahl, is counsel for the Respondent who is the Petitioner's Adversary.

21

Dear Supreme Court Judges, this is like having y our opponent, (a prosecutor) decide your civil rights
violation when he is consciously or unconsciously being an advocate for the Respondent. This is iin no
way fair to the Petitioner. A competent Judge must agree and that I am correct in this assessment and
that Judge Waverly D. Crenshaw MUST come off the Petitioner's case under case No. 3:16-cv-02631.
Furthermore, the Petitioner's trial judge (Cheryl Blackburn) worked as an Assistant Attorney General
herself too! Search "Cheryl A. Blackburn, Assistant District Attorney General" and you will come up
with: (1) Cheryl A. Blackburn, Assistant District Attorney General, 102 Metropolitan Courthouse,
Nashville, TN 37201 under case No. 01-C-01-9112-CR-00382 and . 01-C-01-9403-CR-00084

Argument. There is, furthermore, a risk that the judge "would be so psychologically wedded" to his
or her previous position as a prosecutor that the judge "would consciously or unconsciously {195 L.
Ed. 2d 142} avoid the appearance of having erred or changed position." Withrow, 421 U. S., at 57, 95
S.Ct. 1456, 43 L. Ed. 2d 712

Thus both Crenshaw, State Court Judge Cheryl Blackburn, and the Respondent are all in collusion
against the Petitioner. Therefore, Judge Waverly D. Crenshaw is holly disqualified as he is acting as a
sitting Criminal in violation of the Petitioner's civil rights under title 28 §2254

I request your honor that you look into this matter and ORDER Judge Waverly D. Crenshaw to STOP
violating my civil rights just because he doesn't like me or my charges and REASSIGN my case to a
different judge whom I have no complaints against or have filed any complaints against in the past.

See e.g. Complaints relating to conduct of member of judiciary, which are not connected with judicial
office or do not affect administration of justice, are without jurisdiction and therefore outside scope of
Judicial Councils Reform and Judicial Conduct and Disability Act of 1980, enacting former 28 USCS §
372(c) and amended by Judicial Improvements Act of 2002, 28 USCS §35 J-364; phrase, effective and
expeditious administration of business of courts, was intended to include willful misconduct in office,
willful and persistent failure to perform duties of office, habitual intemperance, and other conduct
prejudicial to administration of justice that brings judicial office into disrepute, and Congress intended
that judicial council dismiss any complaint outside scope of its jurisdiction. In Re Complaint of Judicial
Misconduct, 366 F.3d 963 (9th Cir. 2004).

22

Here then, all three Adversaries (WAVERLY D. CRENSHAW, JR, Cheryl A. Blackburn and
Michael M. Stahl, (the Respondent in the Petitioner's Petitioner's case) are connected.
UNDER ARTICLE II. MISCONDUCT AND DISABILITY, Cognizable Misconduct is conduct
prejudicial to the effective and expeditious administration of the business of the courts. Cognizable
misconduct includes, but is not limited to, the following:
(A) using the judges office to obtain special treatment for friends or relatives; (i.e. District Attorneys)
(D) engaging in partisan political activity or making inappropriately partisan statements: or/and
(4) Retaliation. Cognizable misconduct includes retaliating against Petitioners, witnesses, judicial
employees, or others for participating in this complaint process, or for reporting or disclosing judicial
misconduct or disability; Note: The Petitioner has filed several complaints on the Subject Judge
Here then, Judge Waverly D. Crenshaw stated in his ORDER (Doc. 264, PageID#5671), at the second
paragraph therein:
"The only reason provided by Petitioner for wanting the names of grand jury members
is to challenge a particular juror's service. But Petitioner already knows the name of
that juror, as he identified her by name in his petition for post-conviction relief when
he argued that.she was not a resident of Davidson County"
Thus he engaged in a partisan political activity by denying the Petitioner's Motion and made
an inappropriately partisan statement "The only reason". Thus he knows NOT the Petitioner's
Reasons, yet he thinks he does. He cannot read the Petitioner's Mind.
As amended by Judicial Improvements Act of 2002, 28 USCS § 351-364; phrase, effective and
expeditious administration of business of courts, was intended to include willful misconduct in office,
willful and persistent failure to perform duties of office, habitual intemperance, and other conduct
prejudicial to administration of justice that brings judicial office into disrepute.
Furthermore, the Petitioner alleges that Judge Waverly D. Crenshaw should retire because he has
become complacent and lacks the ability to rule fairly for prisoners when they bring legitimate title 28
§2254 petition's in his court. He offers no substantial, genuine relief or service to Prisoner under §2254.
All he ever does is use negative laws to "his" benefit and make partisan statements.

23

Argument: The mission of a federal judge is to "administer justice without respect to persons , and . . .
faithfully and impartially discharge and perform all the duties incumbent upon [him] . . . under the
Constitution and laws of the United States." 28 U.S.C. § 453 Gudicial oath of office). The Petitioner
alleges that his Motion For Judge Waverly D. Crenshaw to recuse himself (Doc. No. 232) had merit
and that he should have recused himself by federal statute and federal law (28 U.S.C. §144).
Fact. Cognizable Misconduct is conduct preiudicial to the effective and expeditious administration of
the business of the courts. See Article II. Misconduct and Disability
Furthermore, whenever a person filing a complaint has signed a "Sworn Affidavit", those facts must
be accepted as true and a true investigation or charge should be made by the judicial counsel , a
member of the Grand Jury, or the Supreme Court Justices.
Fact: ARTICLE III. JUDICIAL POWER, § 1 of the Constitution provides:
The judicial Power of the United States, shall be vested in one Supreme Court, and in
such inferior Courts as the Congress may from time to time ordain and establish. The
Judges, both of the supreme and inferior Courts, shall hold their Offices during good
Behaviour, and shall, at stated Times, receive for their Services, a Compensation,
which shall not be diminished during their Continuance in Office.
Whereas when high crimes, misdemeanors, and willful felonies have occurred in the past, federal
judges have been impeached by the House without a House resolution "authorizing" an inquiry.
See H.R. Res. 87, 101st Cong. (1989) (impeaching Judge Nixon); H.R. Res. 499 100th Cong. (1988)
(impeaching Judge Hastings); H.R. Res. 461, 99th Cong. (1986) (impeaching Judge Claiborne). In the
course of an impeachment proceeding against a federal judge, the House has also obtained grand jury
material to assist in an impeachment inquiry that was not "authorized" by a specific House
impeachment resolution. See Hastings, 833 F.2d at 1439 (releasing Hastings grand jury information to
HJC). Where such resolutions have directly impeached federal civil officers, they have been
conferred{2019 U.S. Dist. LEXIS 82} by the Speaker to the Committee on the Judiciary, which has
jurisdiction over federal judges and presidential succession . . . ."); Charles W. Johnson et al., House
Practice: A Guide to the Rules, Precedents, and Practice of the House, Ch. 27 § 6, at 602 (2017)
(confirming same).

24

2. A United States Court of Appeals has entered a decision in conflict with the decision of the
United States Supreme Court on the same important matter; (Reason 2)
28 U.S.C. §144 states:
"Whenever a party to any proceeding in a district court makes and files a timely and
sufficient affidavit that the judge before whom the matter is pending has a personal bias
or prejudice either against him or in favor of any adverse party, such judge shall proceed
no further therein, but another judge shall be assigned to hear such proceeding.
The affidavit shall state the facts and the reasons for the belief that bias or prejudice
exists, and shall be filed not less than ten days before the beginning of the term [session]
at which the proceeding is to be heard, or good cause shall be shown for failure to file it
within such time. A party may file only one such affidavit in any case. It shall be
accompanied by a certificate of counsel of record stating that it is made in good faith."
However, when sixth circuit court clerk Debra S. Hunt entered her ORDER (Appendix "A")
denying the Petitioners Writ of Mandamus, she ignored Clearly Established Federal Law (28
U.S.C §144) which MANDATES recusal, nor did she address that statute quoted in the
Petitioner's writ.

3. A United States Court of Appeals has decided an important federal question of law in a way that
conflicts with a decision by the U.S. Supreme Court (Reason 3)
Argument: A statute of the United States (e.g. 28 U.S.C §144) is the Supreme Law of the land and
must be honored if it is the controlling law.

4* A United States Court of Appeals has departed from the accepted and usual course of judicial
proceedings in direct contravention of clearly established federal law (Reason 4)
Argument: Petitioner Cedric Jones avers that ORDERS must be signed by a judge and not by a court
clerk. Otherwise, we are left with the impression that a court clerk has the same power as a Federal
Judge and can give a Federal Judge an ORDER which is not so.

5. The issues presented by the Petitioner herein calls for an exercise of this Court's supervisory
power (Reason 5)
Argument: Obviously the Petitioner does not agree that a court clerk has the same judicial role of
signing ORDERS without there being a way to determine whether or not a Judge issued that ORDER
and the basis for granting petitions such as this one is listed under rule 10 of the Supreme court rules.
6. A United States Court of Appeals has decided an important question of federal law that has not
been, but should be, settled by this Court, or has decided an important federal question in a wav
that conflicts with relevant decisions of this Court (Reason 6)
25

'

Argument: Again, the Petitioner avers that Writs, process, orders, and judgments of a federal court
must be signed by a judge or judges of the court, or by the clerk at the direction of the court with proof
and a sworn statement that a judge or judges directed the clerk to sign the ORDER.

7. The Petitioner avers that he is being held illegally against his will in prison by the Respondent
via a real and active conspiracy under a VOID conviction on the face of his indictment and that
if this Petition is not granted he will lose his life and liberty. (Reason 7)
Generally, an indictment is valid if it provides information sufficient to: (1) enable the accused to
know the offense charged; (2) to furnish the court adequate basis for the entry of a proper judgment;
and (3) to protect the accused from double jeopardy. Wyatt, 24 S.W.3d at 323; State v. Hill 954 S W2d
725, 727 (Tenn. 1997).
Argument: The indictment in question (count 5) stated the dates, the victim, but NOT THE ACT
WHICH CONSTITUTED THE CRIME, specifically referring to the statutory provisions the Petitioner
violated. In other words, Count "5" of the petitioner's indictment points to a "definition of terms" see
Case No. 3:16-cv-02631 Count "5" (Doc. No. 178-1, PagelD #2397) showing T.C.A. §39-13-301
compared to §39-13-304 Agg. Kidnapping (what the petitioner was convicted of in lieu thereof).
Argument: "Not only must the government prove the crime it charges, it must charge the crime it
proves," State v. Goodson, 77 S.W.3d 240, 244 (Tenn. Crim. App. 2001) (quoting U.S. v. Adams, 778
F.2d 1117, 1123 (5th Cir. 1985)) a See State v. Hammonds, 30 S.W.3d 294, 300 (Tenn. 2000).
Count "5" in the Petitioners indictment, (Case No. 3:16-cv-02631), listed in the "record"(Doc. 178-1,
PagelD #2397) fails to set forth in writing the legislative statutory criminal offense code identification
required to charge the crime because it points to a statute which is a parts definition of word terms (see
T.C.A §39-13-301), instead of a criminal offense.
Argument: "When the indictment or presentment fails to fully state the crime, all subsequent
proceedings are void’’. State v. Morgan, 598 S.W.2d 796, 797 (Tenn. Crim. App. 1979) The Petitioner
raised this issue in his Post-Conviction proceedings, but the same trial judge (Cheryl A. Blackburn)
denied it as she is and has been indifferent to the Petitioner.
Your Honor, this court has original jurisdiction over all subject matters and can release the Petitioner.
8. The Petitioner avers that federal judge Waverly D. Crenshaw at Nashville, Tennessee is actively
engaged in criminal conduct against him in secret although he has the title of a Federal Judge
and, that the Supreme Court Justices need to know that this federal judge ( Waverly D.
Crenshaw) is willfully violating federal law enacted by Congress to hide his crimes in secret via
conspiracy with the respondent requiring appointment of a special prosecutor. (Reason 8)

Argument: See 18 U.S.C. §241 Conspiracy against rights, 18 U.S.C. §241 and 18 U.S. C § 1505

26

9. There exist a reasonable likelihood that the Petitioner's case would not be tried with impartiality
where litigants have a right to expect such in United States District Courts, and considering the
broad language of 28 USCS § 455(a), interest of justice requires that cause be tried by another
judge. United States v. Ritter, 540 F.2d 459 (10th Cir.), cert, denied, 429 U.S. 951, 97 S. Ct.
370, 50 L. Ed. 2d 319 (1976). (Reason 9)
Argument: 28 U.S.C. §453 states:
Each justice or judge of the United States shall take the following oath or affirmation
before performing the duties of his office: I,___, do solemnly swear (or affirm) that I will
administer justice without respect to persons, and do equal right to the poor and to the
rich, and that I will faithfully and impartially discharge and perform all the duties
incumbent upon me as
under the Constitution and laws of the United States. So help
me God."
Petitioner avers that the Sixth Circuit Court as well as the District Court Judge in Nashville violated
this oath of office.

10. To resolve a disagreement among the lower court about a specific legal question because there
exist a legacy that the Petitioner believes is unconstitutional whereas a court clerk, Debra S.
Hunt (who is not a judge), is signing ORDERS as if she is a judge See appendix "A" enclosed
(Reason 10)
Argument: Again, the Petitioner avers that a Court Clerk is not a judge, has separate duties from a
federal judge, and should not be signing ORDERS of this magnitude or any period!

11. To see if this practice (where a court clerk signs ORDERS like a judge) can be changed by U.S.
Supreme Court law because the Petitioner avers that writs, process, orders, and judgments of a
court must be signed by a judge or judges of the court, or by the clerk at the direction of the
court with proof or a sworn statement that a judge authorized a court clerk to sign an ORDER
(Reason 11)
Argument: This is how Supreme Court Law is Established, and this is yet another case of 1st
impression that should MANDATE that all ORDERS be signed by a Judge and not a court clerk or at
the direction of a judge with proof ( a sworn statement of affidavit stating that a judge or judges
directed the court clerk to sign the ORDER). Regardless, all ORDERS should be signed by a judge for
it to be binding anyway since only a Judge’s signature can make an ORDER be official.

12. There is a conflict between the decision by the 6th Circuit of which review is now sought and a
MANDATE of congress ("28 U.S.C. §144") on the same issue. (Reason 12)
Argument: When a judge refuses to uphold the law under issues mandated by Congress, he or she is
no longer doing the duty of the court and is in contempt of congress. One should not have to go this far
to correct the problems and the issues a judge has caused willfully.
27

13. To resolve a specific legal question or questions that not only affects the Petitioner's case, at bar
but the general public hence forth. (Reason 13)
Argument: If this Supreme Court determines that the lower court's judgment is VOID then so should it
be for the general public.

14. To determine whether a court clerk (e.g. Debra S. Hunt) can sign an ORDER and that ORDER
be valid and binding without real proof or a sworn affidavit that a judge indeed directed and
authorized he or she to sign it. (Reason 14)
Argument: An ORDER is only valid and binding if it is the law. Right now, United States Supreme
Court law does not give a Court Clerk the same judicial power as a federal judge unless the U.S.
Supreme Court recognized equal power between themselves and a court clerk. This would mean that a
Court Clerk can issue and ORDER against a federal judge when we know this is not Supreme Ct. Law.

15. Because the decision of the 6th Circuit Court of Appeals is clearly erroneous due to the fact that
they completely ignored federal statutory law (title "28 U.S.C. §144") which was cited in the
Petitioner's motion to recuse the district court, judge (Doc. 232), No. 3:16-cv-02631, on the
Petitioner's page 1, in his conclusion section. (Reason 15)

Argument: The lower court's decision was Clearly Erroneous, the Standard listed under Rule 10 of the
United States Supreme court's Rules.

CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,

Date:

V//3

28

AFFIDAVIT
I Cedric Jones Sr. swear (or affirm) under penalty of perjury that the foregoing is true and
correct to the best of my information, knowledge and belief. Further I state these statements are made
under the penalty of perjury.

Executed on this

day of

(
2021
Signature of Petitio:

SWORN TO AND SUBSCRIBED before me
44this the /J
day of
, 2021

JOTA
omm
R Y
expires: /AAfc- CD^'pCX

Si :

lu

=

I
Respectfully submitted,

SIGNATURE
NAME & T.D.O.C #
SOUTH CENTRAL CORRECTIONAL FACILITY
PO BOX 279
555 FORREST AVE
CLIFTON, TENNESSEE 38425-0279

29

i

